           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      SOUTH DAKOTA DISABILITY
      DETERMINATION SERVICES’
   ADMINISTRATIVE COST REPORTING


     August 2011   A-06-11-11153




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      August 4, 2011                                                       Refer To:

To:        Sean Brune
           Regional Commissioner
            Denver

From:      Inspector General

Subject:   South Dakota Disability Determination Services’ Administrative Cost Reporting
           (A-06-11-11153)


           OBJECTIVE
           Our objectives were to determine whether the South Dakota Disability Determination
           Services (SD-DDS) accurately reported obligations for Fiscal Years (FY) 2009 through
           2010; and whether withdrawals made through the Automated Standard Application for
           Payments (ASAP) system were consistent with reported disbursements.

           BACKGROUND
           We initiated this audit at the request of the Social Security Administration’s (SSA) Office
           of Disability Determinations. Disability determination services (DDS) in each State or
           other responsible jurisdiction perform disability determinations under the Disability
           Insurance and Supplemental Security Income programs. Each DDS is responsible for
           determining claimants’ disabilities and ensuring adequate evidence is available to
           support its determinations.

           SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
           approved funding authorization. Once approved, the DDS withdraws Federal funds
           through the Department of the Treasury’s (Treasury) ASAP system. Funds drawn from
           Treasury to pay for program expenditures must be transferred in accordance with
           Federal regulations1 and intergovernmental agreements entered into by Treasury and
           the States under the authority of the Cash Management Improvement Act. 2



           1
               31 C.F.R. § 205.1 et seq.
           2
               Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503 (1990).
Page 2 – Sean Brune


Obligation authority is the monetary limit approved for State agency obligations to be
incurred for SSA disability program operations. 3 The State may not incur or make
expenditures for items of cost not approved by SSA or in excess of the amount SSA
makes available to the State. 4 Additionally, State agencies should control the rate of
expenditures throughout the year and take precautions to safeguard against inadvertent
over-expenditures of SSA’s budget for disability program operations.5 If it appears
expenditures may exceed the cumulative obligation authorization for the dates covered
by the funding, State agencies must consult with SSA regional office staff. 6

At the end of each fiscal quarter, each DDS is required to submit to SSA a State Agency
Report of Obligations for SSA Disability Programs (Form SSA-4513) to account for
program disbursements and unliquidated obligations. 7 DDSs are also required to
provide the regional office a monthly report of actual and projected obligations for the
cost categories reported on the quarterly Form SSA-4513. 8 The Monthly Obligation
Report provides SSA with actual data for all cost categories and projections for the
following 2 months. According to SSA, the Monthly Obligation Report serves as a
critical tool in making funding decisions for DDSs. As a result, the timeliness and
accuracy of these reports is important to SSA.

RESULTS OF REVIEW
SD-DDS did not accurately report obligations incurred in FYs 2009 and 2010. During
these 2 years, SD-DDS consistently under-reported obligations on Monthly Obligation
Reports. Under-reported amounts ranged from $320,798 to $913,257 compared to
actual obligations SD-DDS subsequently reported on quarterly Forms SSA-4513.
Under-reported obligations negatively affected SSA’s ability to accurately forecast
SD-DDS’ funding requirements.

FY 2009 and 2010 withdrawals made through Treasury’s ASAP system were consistent
with reported disbursements. However, in FYs 2005 and 2008, SD-DDS withdrawals
from Treasury exceeded its authority by a combined $16,347. During the audit,
SD-DDS refunded the overdrawn amounts to SSA.




3
    SSA, POMS, DI 39506.200.B.3 (3/12/2002).
4
    SSA, POMS, DI 39506.001.A (3/12/2002).
5
    SSA, POMS, DI 39506.100.A.3 (3/12/2002).
6
    SSA, POMS, DI 39506.100.A.4 (3/12/2002).
7
 SSA, POMS, DI 39506.201 (3/12/2002). Unliquidated obligations represent obligations for which
payment has not yet been made. DI 39506.200.B.4 (3/12/2002).
8
    SSA, POMS, DI 39506.260.A (3/12/2002).
Page 3 – Sean Brune


OBLIGATION REPORTING

SD-DDS did not accurately report obligations incurred in FYs 2009 and 2010.
Cumulative obligations reported on Monthly Obligation Reports understated actual
obligations reported on quarterly Forms SSA-4513 by as much as $913,257 (see
Table 1).

                         Table 1. SD-DDS Obligation Under-reporting
                                    (FYs 2009 Through 2010)
                          Cumulative Obligations        Cumulative                   Cumulative
            Period        on Monthly Obligation        Obligations on               Under-reported
                                Reports               Forms SSA-4513                  Amounts
                                           FY 2009
         Oct–Dec 2008            $518,952              $1,235,847                     ($716,895)
         Jan–Mar 2009          $1,330,865              $1,944,517                     ($613,652)
         Apr–Jun 2009          $2,089,567              $3,002,824                     ($913,257)
         Jul–Sep 2009          $2,958,569              $3,279,367                     ($320,798)
                                            FY 2010
         Oct–Dec 2009            $532,821              $1,163,260                     ($630,439)
         Jan–Mar 2010          $1,402,523              $2,146,121                     ($743,598)
         Apr–Jun 2010          $2,316,022              $2,928,683                     ($612,661)
         July–Sep 2010         $3,259,525              $3,668,386                     ($408,861)


This occurred because SD-DDS did not include the value of obligations incurred but not
paid (unliquidated obligations) on its Monthly Obligation Reports. In May 2008, the
Denver Region Center for Disability notified the SD-DDS about this problem and
provided additional reporting instructions in September 2008 as part of the National
DDS Fiscal Training. In addition, SSA informed us that it provided SD-DDS with
resources and policy regarding obligation reporting, emphasizing that, in accordance
with Federal Appropriations law, SSA calculates obligated amounts for each DDS based
on total obligations incurred—not disbursements. However, the SD-DDS continued to
under-report obligations on Monthly Obligation Reports.

Consistent under-reporting of total obligations negatively affected SSA’s ability to
accurately forecast SD-DDS’ funding requirements. As a result, twice during this 2-year
period, SD-DDS exceeded its obligation authority. 9




9                                                            nd
 SD-DDS exceeded obligation authority by $290,219 in the 2        Quarter of FY 2009 and $270,751 in the
    st
1 Quarter of FY 2010.
Page 4 – Sean Brune


SD-DDS TREASURY ASAP WITHDRAWALS

SD-DDS withdrawals made through Treasury’s ASAP system in FYs 2009 and 2010
were within its established authority and consistent with reported disbursements.
However, during FYs 2005 and 2008, SD-DDS made ASAP withdrawals that exceeded
its Treasury authority by a total of $16,347. The Center for Disability Programs staff
stated that SD-DDS initially did not acknowledge the errors or repay the funds.
However, after we initiated this review, SD-DDS refunded the overdrawn amounts.10

CONCLUSION AND RECOMMENDATION
SD-DDS under-reported monthly obligations incurred in FYs 2009 and 2010 because it
did not include the value of unliquidated obligations incurred on Monthly Obligation
Reports submitted to SSA. SD-DDS’ FY 2009 and 2010 withdrawals made through
Treasury’s ASAP system were consistent with reported disbursements. However, in
FYs 2005 and 2008, SD-DDS withdrawals from Treasury exceeded its authority by a
total of $16,347. During the audit, SD-DDS refunded the overdrawn amounts to SSA.
We consider this issue resolved.

For future reporting periods, we recommend that SSA direct the SD-DDS to accurately
report obligations incurred, including unliquidated obligations, on Monthly Obligation
Reports.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix C. The South Dakota Department of Human Services accepted the findings
as final and offered no further comments.




                                              Patrick P. O’Carroll, Jr.




10
     On November 17, 2010, SSA received a $16,347.33 payment from SD-DDS.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
ASAP          Automated Standard Application for Payments
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
FY            Fiscal Year
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SD-DDS        South Dakota Disability Determination Services
SSA           Social Security Administration
Treasury      Department of the Treasury
U.S.C.        United States Code


Forms
SSA-872       State Agency Obligational Authorization for SSA Disability Programs
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
                                                                      Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable Federal laws, regulations, pertinent parts of the Social Security
    Administration’s (SSA) Program Operations Manual System, and other instructions
    pertaining to administrative costs incurred by the South Dakota Disability
    Determination Services (SD-DDS) and draw down of SSA funds.
•   Reviewed the State of South Dakota Single Audit reports issued in 2007, 2008, and
    2009.
•   Interviewed staff and officials at SSA’s Office of Finance and Denver Regional
    Office.
•   Compared the State Agency Report of Obligations for SSA Disability Programs
    (Form SSA-4513) to the State Agency Obligational Authorization for SSA Disability
    Programs (Form SSA-872) and Monthly Obligation Reports for Fiscal Years
    (FY) 2009 and 2010.
•   Analyzed the Monthly Obligation Reports for FYs 2009 and 2010 to determine
    whether SD-DDS accurately reported obligations.
•   Reviewed withdrawals made through the Department of the Treasury’s (Treasury)
    Automated Standard Application for Payments (ASAP) system to determine whether
    they were consistent with reported disbursements.
•   Confirmed that SD-DDS repaid the FY 2005 and 2008 Treasury ASAP overdraws.

We performed the audit from November 2010 through March 2011 at the SSA Regional
Office in Denver, Colorado. We did not test the general or application controls of SSA
systems that generated electronic data used for this audit. Instead, we traced selected
transactions to source documents and performed other validation tests. As a result, we
found the data to be sufficiently reliable to meet our audit objectives. We conducted our
audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
                  Appendix C

Agency Comments
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
   Ron Gunia, Director, Dallas Audit Division

   Neha Smith, Audit Manager, Denver Office

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-06-11-11153.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
